No. 21-

In the Supreme Court of the United States
NATIONAL PORK PRODUCERS COUNCIL & AMERICAN
FARM BUREAU FEDERATION,
Petitioners,
v.
KAREN ROSS, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
I, Timothy S. Bishop, counsel for Petitioners National Pork Producers Council
and American Farm Bureau Federation, hereby certify as required by Supreme
Court Rule 33.1(h) that, according to the word-count tool in Microsoft Word, the
Petition for a Writ of Certiorari of Petitioners consists of 8,190 words, including
footnotes and excluding the sections enumerated by Rule 33.1(d). The Petition
therefore complies with Rule 33.1(g).
/s/ Timothy S. Bishop________
Timothy S. Bishop
Mayer Brown LLP
71 S. Wacker Drive
Chicago, IL 60606
(312) 782-8000
tbishop@mayerbrown.com

